     Department of Homeland Security

     ��������������������������


FEMA Should Recover $154,143 of Public Assistance 

 Grant Funds Awarded to Brevard County, Florida, 

             under Hurricane Wilma 





OIG-14-07-D                          November 2013

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security
                                         V.,'ashington~   DC 20528.: www.oig.c.lh!i.gll'>



                                                      M~V ~        0 2013
MEMORANDUM FOR:                         Major P. {Phil) May
                                        Regional Administrator, Region IV
                                        Federal Em          Manage       Agency

FROM:                                   John V. W~.d-~:J.-.7,..::;...~
                                        Assistant Itl   tt     eraI
                                        Office of e" ergency Management Oversight

SUBJECT:                                FEMA Should Recover $154,143 of Public Assistance Grant
                                        Funds Awarded to Brevard County, Florida, under
                                        Hurricane Wilma
                                        FEMA Disaster Number 1609-DR-Fl
                                        Audit Report Number OIG-14-07-0

We audited Public Assistance funds awarded to Brevard County, Florida (County) (FIPS
Code 009-99009-00). Our audit objective was to determine whether the County
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The County received a Public Assistance award totaling $12.1 million from the Florida
Division of Emergency Management (FDEM), a FEMA grantee, for damages resulting
from Hurricane Wilma, which occurred in October 200S. The award provided
100 percent FEMA funding for debris removal, emergency protective measures, and
permanent repairs to buildings and facilities. The award consisted of 9 large projects
                       1
and 84 small projects.

We audited 2 large projects and 13 small projects with awards totaling $1.3 million (see
Exhibit, Schedule of Projects Audited and Questioned Costs) for debris removal and
emergency protective measures. We limited our review of small projects to determine
whether (1) the County completed the projects and (2) another funding source covered
the project costs. The audit covered the period October 24, 2005, to May 22, 2013,
during which the County claimed $1.3 million of costs under the projects reviewed. At
the time of our audit, the County had completed work on all large projects included in
our scope and had submitted a fin a I claim to FDEM for all project expenditures.




1
    Federal regulations in effect at the time of the disaster set thP. large project threshold at $5 7,500.
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

We conducted this performance audit between January and July 2013 pursuant to the
InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed County, FDEM, and FEMA personnel; reviewed the County’s procurement
policies and procedures; reviewed applicable Federal regulations and FEMA guidelines;
and performed other procedures considered necessary to accomplish our audit
objective. We did not assess the adequacy of the County’s internal controls applicable to
its grant activities because it was not necessary to accomplish our audit objective.
However, we gained an understanding of the County’s method of accounting for
disaster-related costs and its policies and procedures for administering activities
provided for under the FEMA award.


                                   RESULTS OF AUDIT

FEMA should recover $154,143 of Public Assistance grant funds awarded to the County.
The County generally accounted for FEMA grant funds according to Federal regulations
and FEMA guidelines for the projects we reviewed. However, its claim included
$154,143 of ineligible costs, which consisted of $75,494 of costs covered by insurance,
$45,577 of costs covered by another agency, and $33,072 of costs for repairs to facilities
for which the County did not obtain and maintain required insurance coverage to
protect the facilities against future losses.

Finding A: Costs Covered by Insurance

The County claimed $75,494 of costs covered by insurance. According to Section 312 of
thefRobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct,fas amended, no
entity will receive assistance for any loss for which it has received financial assistance
from any other program, insurance, or any other source.

At the time of our audit, a FEMA insurance specialist had not conducted a full review of
the County’s insurance proceeds and applied relevant proceeds to reduce eligible
project costs. Nonetheless, the County’s insurance settlement covered $75,494 of costs


www.oig.dhs.gov                                                                        OIG-14-07-D
                                             2

                            OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

the County claimed under several projects. Therefore, we question the $75,494 as table
1 shows.

                      Table 1: Project Costs Covered by Insurance
                                                                  Actual
       Project    Project       Project                         Insurance    Amount
       Number      Size       Description            Award      Proceeds    Questioned

         983       Small       Pineda Park            $ 6,300     $ 3,476        $ 3,476
                            Animal Services
                                   and
         2889      Small      Enforcement               1,627      26,798          1,627
                            South Mainland
         4165      Small         Library                2,997      15,434          2,997
                            Fire Stations 21
         6066      Small          and 22                1,843       1,569          1,569
                            Fire Stations 81
         6554      Small          and 87                4,236       2,036          2,036
                            Fire Stations 42,
         6672      Small        62, and 86              4,662      13,071          4,662
         5301      Small      Parrish Park              3,900       4,250          3,900
         3432      Small    Kelly Park West             5,351       2,185          2,185
                             Kiwanis Island
         4355      Small           Park                 2,689       3,163          2,689
                            Brevard County
        4812       Small         Airport               50,017     348,679         50,017
        5307       Small    Sandpoint Park              8,798         336            336
      Total                                           $92,420    $420,997        $75,494

County officials disagreed with this finding, saying that they would review their project
files and provide supporting documentation to FEMA to show that the costs are eligible.

Finding B: Duplication of Benefits

The County’s claim under Project 3 included $45,577 for debris removal activities that
are the responsibility of the Federal Highway Administration (FHWA). According to
Section 312 of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as
amended, no entity will receive assistance for any loss for which the entity has already
received financial assistance from any other program, insurance, or any other source.

The County submitted a reimbursement request to FHWA for costs of collecting and
hauling disaster-related debris from Federal-aid roads. The FHWA paid the County
$192,488 for the activities and the County reduced project costs by that amount
accordingly. However, we noted the County did not submit a reimbursement request for


www.oig.dhs.gov                                                                            OIG-14-07-D
                                                3

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

$45,577 of costs associated with processing and disposing of the debris. County officials
could not explain why they did not seek FHWA reimbursement for the processing and
disposal costs. We question the $45,577 because these costs are the responsibility of
the FHWA and, therefore, the County should have sought reimbursement from FHWA
rather than FEMA.

County officials agreed with this finding.

Finding C: Ineligible Project Costs

The County’s claim under Projects 6002 and 6539 included $33,072 for repairing
damaged roofs and doors of a fire station and supply building for which it did not obtain
and maintain insurance coverage to protect the facilities against future losses. According
to 44 CFR 206.253, FEMA will approve Public Assistance funding only on the condition
that the applicant obtain and maintain such types and amounts of insurance as are
reasonable and necessary to protect against future loss to such property from the types
of hazard that caused the major disaster. Therefore, we question the $33,072, which
consists of $14,800 under Project 6002 and $18,272 under Project 6539.

County officials disagreed with this finding, saying that they would review their project
files and provide supporting documentation to FEMA to show that the costs are eligible.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $75,494 of insurance benefits that the County did not
deduct from project costs unless the County can provide sufficient evidence that the
costs were not covered by insurance (finding A).

Recommendation #2: Disallow $45,577 of debris removal costs that the County claimed
on Federal-aid roads that are the responsibility of the FHWA unless the County provides
sufficient evidence that FHWA is not responsible for these costs (finding B).

Recommendation #3: Disallow $33,072 of costs the County claimed to repair damaged
facilities for which the County failed to obtain and maintain insurance coverage to
protect the facilities against future losses unless the County provides sufficient evidence
that it obtained the required insurance (finding C).



www.oig.dhs.gov                                                                        OIG-14-07-D
                                             4

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


We discussed the results of our audit with County, FDEM, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conference held on July 31, 2013. We incorporated County officials’ comments
into the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until we receive and
evaluate your response, we will consider the recommendations as open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributions to this report are David Kimble, Director; Adrianne Bryant, Audit
Manager; Oscar Andino, Auditor-in-charge; Nadine Ramjohn, Senior Auditor; and
Calbert Flowers, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                                                                      OIG-14-07-D
                                           5

                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                                                                                Exhibit

                     Schedule of Projects Audited and Questioned Costs

                                             FEMA
   Project                                 Category of   Amount         Amount
   Number      Project Scope                  Work       Awarded       Questioned   Finding

   Large Projects:

      3        Debris Removal                  A          $ 924,737       $45,577     B

     6154      Protective Measures             B            209,984             0

    Subtotal                                              $1,134,721      $45,577

   Small Projects:

     4812      Repair Airport Facilities       G            $ 50,017      $50,017     A

     6539      Reset Metal Roll Door           E              18,272       18,272     C

     983       Pineda Park Pool                E               6,300        3,476     A

     5307      Replace Netting                 G               8,798          336     A

     3432      Remove Light Fixtures           G               5,351        2,185     A

     6672      Repair Fire Station             E               4,662        4,662     A

     6554      Repair Fire Stations            E               4,236        2,036     A

     5301      Replace Valves                  F               3,900        3,900     A

     4355      Reattach Score Board            G               2,689        2,689     A

     4165      Replace Damage Tile             E               2,997        2,997     A

     6066      Fire Stations 21 and 22         E               1,843        1,569     A

     2889      Restore Animal Shelter          E               1,627        1,627     A

     6002      Asphalt Shingle Roof            E             14,800        14,800     C

   Subtotal                                               $ 125,492      $108,566
   Total                                                  $1,260,213     $154,143




www.oig.dhs.gov                                                                               OIG-14-07-D
                                                   6
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

                                                                           Appendix


                                 Report Distribution

Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-012)

State
Executive Director, Florida Division of Emergency Management
State Auditor, Florida

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Sub grantee
Audit Liaison, Brevard County

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                                                                        OIG-14-07-D
                                          7

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
